  DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General



                    Audit of the
      Automated Commercial Environment
             Secure Data Web Portal:
     Quality of Deliverables Can Be Improved




         Office of Audits
OIG-04-01           November 2003
                                      Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG)
was established by the Homeland Security Act of 2002 (Public Law 107-296) by
amendment to the Inspector General Act of 1978. This is one of a series of audit,
inspection, investigative, and special reports prepared by the OIG periodically
as part of its oversight responsibility with respect to DHS to identify and prevent
fraud, waste, abuse, and mismanagement.

This report is the result of an assessment of the strengths and weaknesses of the
program, operation, or function under review. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein, if any, have been developed on the basis of the
best knowledge available to the OIG, and have been discussed in draft with those
responsible for implementation. It is my hope that this report will result in more
effective, efficient, and/or economical operations. I express my appreciation to all
of those who contributed to the preparation of this report.




Clark Kent Ervin
Acting Inspector General
OIG
Department of Homeland Security
Office of Inspector General


                                                   INTERIM REPORT

                      AUDIT OF THE AUTOMATED COMMERCIAL ENVIRONMENT
                                    SECURE DATA WEB PORTAL

    On April 4, 2003, the Office of Inspector General (OIG) began an audit of the Automated Commercial
    Environment (ACE) secure data web portal1. During the ongoing audit, we identified matters that
    required immediate management attention. Therefore, we are issuing this interim report, number
    OIG-01-04, titled, Audit of the Automated Commercial Environment Secure Data Web Portal: Quality of
    Deliverables Can Be Improved. The objective of the audit is to determine whether the ACE web portal
    is being properly managed and developed to meet user expectations.

    The purpose of this interim report is to recommend improvements to the Customs and Border Protection
    (CBP) management of the ACE program. During the first year and a half of the ACE contract, there
    were continued concerns about the quality of deliverables from the prime contractor. These concerns
    were highlighted in the Department of Treasury Office of Inspector General (OIG) reports2 and in U.S.
    Customs Service’s (Customs) correspondence with the contractor. Currently, the ACE contract is at a
    critical stage of development. ACE will be developed in a series of releases. Exhibit 1 illustrates the
    functionalities that will be delivered to users in each release. In Release 2 the contractor will deliver the
    portal through which the international trade community and the government will access ACE. Releases
    1 and 2 are the foundational activities upon which all subsequent ACE development will occur. If the
    portal is not complete, or of sufficient quality, the overall cost and the time to complete ACE could
    increase.

    In the current review, CBP, the successor to Customs, concurred with our two recommendations relating
    to acceptance of the Release 2 deliverable and improving technical reporting. Their response was dated
    September 11, 2003 and outlined planned corrective actions that, when fully implemented, will satisfy
    the intent of our recommendations. Target dates were not included in the response; however, products



    1
     A web portal is software that provides a controlled gateway to an internet site.
    2
     Treasury OIG issued three audit reports on ACE development to Customs. These reports highlighted the continued risk of
    emphasizing schedule over quality. These reports are:
        • OIG-02-058, March 4, 2002, Titled: Customs Needs to Adequately Staff the Modernization Office
        • OIG-02-102, July 9, 2002, Titled: ACE Development at Risk from Incomplete Management Systems
        • OIG-03-058, February 13, 2003, Titled: Improved Management of Reengineering Needed


                 Audit of the Automated Commercial Environment (ACE) Secure Web Portal                               Page 1
and decision points associated with the recommendations are specified in the ACE program schedules.
The complete CBP response is provided as Exhibit 2.

By way of background, in August 2001 the ACE contract work was started by e-Customs Partnership (e-
CP), a coalition of contractors headed by IBM Global Services. As of June 2003, Congress appropriated
and released $735 million for ACE. The CBP plans for ACE to be a customer-oriented, account-centric
process that provides real-time access to internal and external information through a secure global
channel for travel and trade. ACE is scheduled to be fully implemented by December 2007.

Quality of Deliverables Can Be Improved

In release 1, CBP accepted deliverables that did not meet expectations. CBP transferred these
developmental issues to release 2. These issues contributed to a four-month delay in the ACE contract
schedule for release 2. A 90-day pilot test for Release 2 was started in June 2003. At the end of the
pilot, CBP will evaluate the acceptability of the deliverable. It is critical that the foundational activity
in Release 2 is complete and satisfactorily meets quality, security, and user expectations prior to
acceptance.

According to the Program Management Plan, contract tasks will include key milestones as “gates” into
and out of each phase of the project’s life cycle. During each release there are specific deliverables that
are key milestones. Examples of key milestones in Releases 1 and 2 include the Critical Design Review,
Test Readiness Review, Production Readiness Review, and Operational Readiness Review. Each
deliverable should be complete prior to continuing with system development. CBP’s Modernization
Office reviews each deliverable to determine whether it is acceptable.

ACE Release 1 was to establish an integrated infrastructure and web portal framework upon which all
subsequent ACE functionality will be built. In addition, the release was to lay the foundation for a user
account structure for selected importers at selected locations. ACE Release 2 includes initial Account,
Trade, and Portal functionality to internal CBP account managers and 41 companies. It will allow CBP
account managers to establish trade accounts for a number of major importers and track major activities
related to each account, such as enforcement and compliance activities. Members of the international
trade community will also be able to access certain information pertaining to their accounts. The Secure
Data Portal will provide access for both the trade and CBP users to interact with the ACE system.

During Release 1, CBP identified problems in the areas of system infrastructure, performance, and
usability. However, the Modernization Office and the contractor proceeded to develop Release 2 with
plans to fix the problems during development. For example,

   •     The Modernization Office accepted with conditions the Critical Design Review and Test
         Readiness Review, which allowed the contract to continue to the next key milestone.


Page 2                     Audit of the Automated Commercial Environment (ACE) Secure Web Portal
   •   The solutions to problems identified with infrastructure, stability, and performance were
       postponed to Release 2.

   •   The User Acceptance Test users deemed the Release 1 Pilot “unacceptable.” A decision was
       made to make the corrections in Release 2.

   •   During the Release 1 Project Readiness Review, a decision was made to move the correction of
       15 product trouble reports to Release 2.

   •   A decision was made prior to the pilot period that Release 1 would not move into an operational
       status, since the pilot would not be completely successful. Therefore, rather than making a
       decision to reject or accept Release 1 at the Operational Readiness Review, the Modernization
       Office simply accepted the Pilot Evaluation Report.

In addition to infrastructure stability and performance problems discovered during Release 1,
unexpected infrastructure problems also occurred during Release 2 with the integration of commercial
off the shelf software packages. However, in order to mitigate problems associated with schedule
delays, staff was brought in from other project areas to help resolve the problems and some Release 2
requirements have already been moved to future releases.

Unlike prior deliverables, which were written products, Releases 1 and 2 are to provide a working
system. This system must be functional for CBP and international trade companies. Some of the prior
deliverables were accepted with conditions to allow the contract to continue as scheduled. Since Release
2 will be the infrastructure upon which subsequent ACE functionalities will be built, it must be complete
and meet higher quality standards prior to acceptance.

       Recommendation 1. We recommend that the contracting officer not accept the delivery of
       Release 2 until it is complete and meets the quality expected for all contract requirements.

       Management Comments: CBP concurred and the contracting officer will only accept the
       delivery of ACE Release 2 when it meets the clearly defined acceptance criteria at the Operations
       Readiness Review.

       OIG Comment: The actions taken and planned by CBP satisfy the intent of our
       recommendation. However, CBP expressed concerns that the draft report implies that CBP’s
       emphasis on schedule caused the resultant loss of quality. The OIG did not intend to imply this
       and the report has been revised accordingly. While CBP took several positive direct measures
       with the eCP to deal with problems encountered, our report makes recommendations to further
       improve government oversight of the contract. It is the responsibility of the contracting officer to
       ensure that the government gets what it has contracted for in a timely manner.


           Audit of the Automated Commercial Environment (ACE) Secure Web Portal                    Page 3
Technical Reporting Could Be Improved

MITRE is an independent not-for-profit corporation chartered to work in the public interest. MITRE
supports the CBP Modernization Office with strategic guidance and provides assessments of e-CP work
products. It also provides technical expertise in acquisition, engineering, and architecture.

The current MITRE reports are not designed to provide Modernization Office management with the
information they need to make the most informed decision. MITRE provides the Modernization Office
with weekly activity reports and monthly progress reports. Weekly reports form part of the monthly
progress report. The progress reports describe the work accomplished by MITRE during the reporting
period and planned activities for the upcoming weeks. Progress reports address MITRE’s activities in
five areas - Project Management, Strategic Planning, Program Management, Enterprise Architecture
and Engineering, and Projects. However, the reports provided by MITRE do not provide sufficient
detail to identify and highlight important issues, nor do they provide alternative actions, risks, and
recommendations needed by the Modernization Office to understand MITRE’s position on issues clearly.
For example, the reports are generally limited to a listing of meetings attended or documents reviewed,
without further commentary. Consequently, the Modernization Office does not have a clear written
record of MITRE’s assessment results.

         Recommendation 2. We recommend that the CBP chief information officer require MITRE
         to provide a report to the Modernization Office at the end of each of the key milestones of the
         project’s life cycle, which, based on MITRE’s technical evaluations, provide management with
         alternative actions, risks, and recommendations, as appropriate.

         Management Comments: CBP concurred and has directed MITRE to provide a report as
         described in the recommendation.

         OIG Comment: The actions taken and planned by CBP satisfy the intent of our
         recommendation.




Page 4                     Audit of the Automated Commercial Environment (ACE) Secure Web Portal
                                                                        Exhibit 1




Audit of the Automated Commercial Environment (ACE) Secure Web Portal      Page 5
Exhibit 2




Page 6      Audit of the Automated Commercial Environment (ACE) Secure Web Portal
Audit of the Automated Commercial Environment (ACE) Secure Web Portal   Page 7
Page 8   Audit of the Automated Commercial Environment (ACE) Secure Web Portal
Audit of the Automated Commercial Environment (ACE) Secure Web Portal   Page 9
Page 10   Audit of the Automated Commercial Environment (ACE) Secure Web Portal
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector General,
Investigations Division – Hotline. The OIG seeks to protect the identity of each
writer and caller.
